<html>
<title> - [H.A.S.C. No. 112-144]AFGHAN NATIONAL SECURITY FORCES AND SECURITY LEAD TRANSITION: THE ASSESSMENT PROCESS, METRICS, AND EFFORTS TO BUILD CAPABILITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 112-144]

                    AFGHAN NATIONAL SECURITY FORCES
                     AND SECURITY LEAD TRANSITION:
                    THE ASSESSMENT PROCESS, METRICS,
                    AND EFFORTS TO BUILD CAPABILITY

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 24, 2012




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                      U.S. GOVERNMENT PRINTING OFFICE

  75-634 PDF               WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5532253a15362026213d3039257b363a387b">[email&#160;protected]</a>  




              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                    ROB WITTMAN, Virginia, Chairman
K. MICHAEL CONAWAY, Texas            JIM COOPER, Tennessee
MO BROOKS, Alabama                   ROBERT ANDREWS, New Jersey
TODD YOUNG, Indiana                  MARK S. CRITZ, Pennsylvania
TOM ROONEY, Florida                  COLLEEN HANABUSA, Hawaii
MIKE COFFMAN, Colorado
                 Jordan Holt, Professional Staff Member
                 Paul Lewis, Professional Staff Member
            Christopher J. Bright, Professional Staff Member
                     Arthur Milikh, Staff Assistant

















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Tuesday, July 24, 2012, Afghan National Security Forces and 
  Security Lead Transition: The Assessment Process, Metrics, and 
  Efforts To Build Capability....................................     1

Appendix:

Tuesday, July 24, 2012...........................................    25
                              ----------                              

                         TUESDAY, JULY 24, 2012
   AFGHAN NATIONAL SECURITY FORCES AND SECURITY LEAD TRANSITION: THE 
      ASSESSMENT PROCESS, METRICS, AND EFFORTS TO BUILD CAPABILITY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Wittman, Hon. Rob, a Representative from Virginia, Chairman, 
  Subcommittee on Oversight and Investigations...................     1

                               WITNESSES

Cordesman, Dr. Anthony H., Arleigh A. Burke Chair in Strategy, 
  Center for Strategic and International Studies.................     2
Felter, COL Joseph H., USA (Ret.), Ph.D., Senior Research 
  Scholar, Center for International Security and Cooperation, 
  Stanford University............................................     4
Johnson, Charles M., Jr., Director, International Affairs and 
  Trade, U.S. Government Accountability Office...................     7
Moorefield, Amb. (Ret.) Kenneth P., Deputy Inspector General for 
  Special Plans and Operations, Office of the Inspector General, 
  U.S. Department of Defense.....................................     6

                                APPENDIX

Prepared Statements:

    Cordesman, Dr. Anthony H.....................................    31
    Felter, COL Joseph H.........................................    70
    Johnson, Charles M., Jr., joint with Sharon L. Pickup, 
      Director, Defense Capabilities and Management, U.S. 
      Government Accountability Office...........................    97
    Moorefield, Amb. (Ret.) Kenneth P............................    87
    Wittman, Hon. Rob............................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
   AFGHAN NATIONAL SECURITY FORCES AND SECURITY LEAD TRANSITION: THE 
      ASSESSMENT PROCESS, METRICS, AND EFFORTS TO BUILD CAPABILITY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                            Washington, DC, Tuesday, July 24, 2012.
    The subcommittee met, pursuant to call, at 2:05 p.m. in 
room 2212, Rayburn House Office Building, Hon. Rob Wittman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM 
       VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mr. Wittman. Ladies and gentlemen, in the interest of time, 
since we have some votes coming up, we will get under way. I 
will call to order in an open session the Subcommittee on 
Oversight and Investigations for a hearing on ``Afghan National 
Security Forces and Security Lead Transition: The Assessment 
Process, Metrics, and Efforts To Build Capability.''
    And I want to welcome our panelists today. Thank you for 
taking time out of your busy schedules.
    And today our subcommittee convenes the fourth in our 
series of hearings related to the Afghan National Security 
Forces. Members have just received a closed classified briefing 
from the senior Department of Defense officials on the metrics 
used to assess the readiness of Afghan forces and current 
capability ratings. Now the subcommittee holds an open hearing 
on this topic.
    And we have assembled a panel of specialists to provide 
testimony about the sufficiency and reliability of the metrics 
used by the U.S. to track the progress of the development of 
the Afghan National Security Forces. We will also receive 
testimony on the effectiveness of the U.S. training effort and 
the challenges our troops face in readying the Afghan Army and 
police to assume the lead for security by 2014.
    The development of self-sufficient Afghan forces capable of 
providing internal and external security is a key goal for the 
U.S. strategy in Afghanistan. And in the public settings before 
this subcommittee and elsewhere, Department of Defense 
officials have said that the capability of the Afghan forces 
will inform decisions about the pace of the continued drawdown 
of U.S. troops and the size of an enduring U.S. presence.
    Our panel today includes Dr. Anthony Cordesman, the Arleigh 
A. Burke Chair in Strategy at the Center for Strategic and 
International Studies; Dr. Joseph Felter, a retired U.S. Army 
colonel and senior research scholar at the Center for 
International Security and Cooperation at Stanford University; 
Ambassador Kenneth Moorefield, the Deputy Inspector General for 
Special Plans and Operations at the Department of Defense 
Office of the Inspector General; Mr. Charles M. Johnson, Jr., 
Director of International Affairs and Trade at the United 
States Government Accountability Office. Mr. Johnson will be 
assisted in answering questions by his colleague, Ms. Sharon 
Pickup, also a director at GAO.
    Panelists, thank you for your participation today, and we 
look forward to your testimony.
    I note that all Members have received your full written 
testimony. This will also be entered into the record as 
submitted. Therefore, this afternoon I ask that you summarize 
your comments and highlight the significant points. This will 
allow our Members greater time to pose questions and ask for 
additional information.
    As an administrative note, I recognize that members of 
other subcommittees may join us. Pursuant to the committee 
rules, I will recognize these Members after all Oversight and 
Investigations Subcommittee members have had an opportunity to 
question the witnesses.
    I want to remind the panelists that we are on a strict 5-
minute limit, so I would ask that you watch your timers. The 
gavel will sound at 5 minutes in the interest of time, since we 
have a large number of panelists and an upcoming vote. So I 
will ask that you strictly follow our time guidelines.
    And, with that, Mr. Cooper, I will go to you for an opening 
statement.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 29.]
    Mr. Cooper. Thank you, Mr. Chairman. In the interest of 
time, I have no opening statement.
    Mr. Wittman. Thank you, Mr. Cooper.
    With that, we will begin with our witnesses.
    Dr. Cordesman.

 STATEMENT OF DR. ANTHONY H. CORDESMAN, ARLEIGH A. BURKE CHAIR 
  IN STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Cordesman. Thank you very much, Mr. Chairman.
    Let me begin by saying no one should approach the 
challenges of creating effective Afghan security forces and 
creating the right assessment process and metrics without 
remembering our failures in Vietnam and in Iraq. These were 
very different wars from Afghanistan, but they did have some 
things in common: We consistently exaggerated the progress 
being made in developing the forces in each country, and we 
made constant changes to our goals for force size, structure, 
and funding. Every year was the first year in Vietnam and Iraq, 
and, in many ways, every year is the first year in Afghanistan.
    We have also repeated our tendency to rush force 
development and focus on progress in numbers rather than 
problems. Our current assessment tools, like the CUAT 
[Commander's Unit Assessment Tool] system, have taken years to 
envolve, and they still focus on force generation rather than 
the broader and far more important issue of determining whether 
we can create an affordable and sustainable force that can 
actually take over security and finding the right ways to 
measure progress toward that goal.
    At present, we lack any credible plan for the future 
development of Afghan forces. We use broad numbers like 
352,000, 228,500, and 4.1 billion. We rate units individually 
in ways that ignore key issues like corruption, political 
alignments, and the actual ability to deal with insurgent 
threats in the field. We have no public plan that explains the 
progress we expect in credible terms, the challenges we face, 
the real-world costs of sustaining progress, and what 
transition really means in terms of time--all of which are 
critical aspects of metrics and assessment.
    In my detailed testimony, I have laid out the challenges we 
need to meet in changing our assessment systems in considerable 
detail. And I have not done this casually. I fully recognize 
that we have made real progress in developing the ANSF [Afghan 
National Security Forces], particularly since we first started 
to fund the effort on a credible basis in 2010. But the fact 
is, it remains a very high-risk effort. Our metrics and 
assessments are weak, and they focus on creating the force 
rather than transition. And I am deeply disturbed that NTM-A 
[NATO Training Mission-Afghanistan] has not issued a useful 
public report on ANSF development since 2010.
    With the exception of the Department of Defense semiannual 
report to Congress, there is no command transparency, no basis 
for public trust. And experience should tell us that if we are 
to have any chance of success, we need to look beyond today's 
assessment and metrics.
    The main purpose of ANSF metrics should be to determine 
whether the ANSF has the will and ability to fight and act as a 
coherent force to develop the central government. Manning, 
equipment levels, and training are all secondary. We should 
never lump together the elements of the ANSF. They should all 
be assessed separately and in different ways, reflecting their 
function.
    Assessment should be tied to credible funding plans and 
estimates of what is being spent, the number of trainers, the 
number of mentors, and the number of partners actually there. 
No one should ever be allowed to report people as pledged as if 
they were present. We need to honestly assess the massive 
impact of corruption, ties to power brokers and warlords that 
affects every element of the ANSF.
    When we do these assessments and metrics, they should be by 
district, by region, and by critical area of engagement, not 
broad, national, or provincial figures that really do not 
reflect progress. We do need to have assessments of how the 
police and security forces are actually tied to the justice 
system and governance. A police-only assessment system is 
inherently meaningless.
    And, finally, we should tie all of our assessments to 
whether we can afford the overall activities of the government, 
whether the overall funding of transition is adequate, and not 
separate the funding of the ANSF from the overall fiscal 
problems of transition.
    Thank you very much.
    [The prepared statement of Dr. Cordesman can be found in 
the Appendix on page 31.]
    Mr. Wittman. Thank you, Dr. Cordesman. I appreciate your 
testimony.
    Dr. Felter.

 STATEMENT OF COL JOSEPH H. FELTER, USA (RET.), PH.D., SENIOR 
    RESEARCH SCHOLAR, CENTER FOR INTERNATIONAL SECURITY AND 
                COOPERATION, STANFORD UNIVERSITY

    Dr. Felter. Thank you, Chairman Wittman, Ranking Member 
Cooper, and members of the subcommittee. It is an honor and 
privilege to join this distinguished panel and to discuss the 
challenges of building and assessing the capabilities of the 
Afghan National Security Forces.
    My testimony draws on perspective gained in my career as a 
U.S. Army Special Forces officer with multiple operational 
deployments, most recently as commander of the International 
Security Assistance Force Counterinsurgency Advisory and 
Assistance Team from 2010 to 2011.
    The ANSF can't win the war in Afghanistan on its own, but 
it can lose it. Accomplishing its core mission of establishing 
security and protecting the population is critical to setting 
conditions and creating space for the Afghan Government to 
implement the development, governance, and other activities key 
to making progress and ultimately prevailing in this 
comprehensive counterinsurgency campaign. With security, 
sustainable gains are possible. Without it, progress along any 
other line of effort will be impeded and failure all but 
certain.
    One effort to bring this critically important security to 
areas beyond the current reach of the ANA [Afghan National 
Army] and ANP [Afghan National Police] is the MOI's [Ministry 
of the Interior] Afghan Local Police program. To date, there 
has been steady and deliberate progress in fielding the ALP 
[Afghan Local Police]. And U.S. Special Operations Forces, 
working by, with, and through their Afghan counterparts and 
other coalition force members, have done and continue to do a 
remarkable job under extraordinarily challenging conditions.
    But there are serious potential risks associated with 
deploying the ALP or other similar security forces. A number of 
ANA forces I spoke with when ALP was fielded admitted concerns 
that they may have to fight these forces someday after ISAF 
[International Security Assistance Force] departs.
    Afghan Government leaders may determine that the ALP 
program should not be continued, and this is certainly their 
sovereign prerogative. However, I believe they would be 
abandoning the ALP at their own peril if they cannot adequately 
resource and field an alternative initiative to protect 
Afghanistan's rural population in strategically important 
areas, deny these areas to the Taliban, and create space for 
state institutions to mature.
    Given the emphasis of this hearing on metrics and 
assessments, I will highlight a challenge on this topic. 
Gauging ANSF capacity has by and large relied on assessments 
presented in quantitative terms, just as Mr. Cordesman has 
emphasized, such as how many ANSF in various categories are 
trained and deployed. A less deliberate effort has been 
invested in accounting for variation in the quality of these 
forces.
    Quality assessments are often based on the reports of U.S. 
trainers' and mentors' reports, and these are often not 
transparent. These can be quite accurate when they spend a 
considerable amount of time with the unit, but much less so in 
cases where they have limited real exposure to the units being 
assessed. Given this, at least in the case of the police and 
other units with frequent exposure to locals, I would advocate 
including some form of a community-based performance 
assessment, in which both public and anonymous feedback is 
regularly solicited through surveys, complaint hotlines, and 
other mechanisms, as an independent measure of performance. 
Such assessments might help increase public accountability.
    I will conclude with reasons for optimism and concern that 
should inform efforts to build ANSF capability and to develop 
standards to assess them by.
    Assessing ANSF capabilities relative to the standards of 
developed Western militaries can be disheartening. But, 
encouragingly, ISAF and GIRoA's [Government of the Islamic 
Republic of Afghanistan] challenge is building and sustaining 
security forces that are more capable than the Taliban and 
other likely threats that Afghanistan will face. This standard 
is arguable achievable, even with the well-documented ANSF 
weaknesses and shortcomings.
    Also, historical precedent provides some basis for optimism 
that the ANSF, with continued aid and support from the 
international community, may be able to secure the country and 
prevent a return of Taliban rule after U.S. forces leave. 
Following the redeployment of Soviet combat troops from 
Afghanistan in early 1989, for example, the security situation 
did not collapse, despite the many dire predictions at the 
time.
    But we have many reasons for concern as we build and assess 
ANSF capacity. Ultimately, counterinsurgency campaigns can only 
be as good as the governments they support, and even the best, 
most effective militaries cannot compensate long for failures 
in governance.
    It is likely that huge investments made in the ANSF have 
led to the purchasing of a certain amount of cooperation among 
various authority figures. As our investments are inevitably 
reduced and these incentives diminished, this cooperation will 
be harder to sustain. Given this, perhaps the biggest threat to 
the ANSF's ability to secure the country after the departure of 
U.S. forces hinge less on its capabilities and more on its 
internal cohesion and the potential for ethnic divisions to 
fracture it.
    A capable ANSF is a necessary but not sufficient condition 
for success in the Afghanistan campaign. Improving the 
capabilities of this institution must not be addressed or 
assessed in a vacuum.
    Thank you for the honor of testifying here today, and I 
look forward to your questions.
    [The prepared statement of Dr. Felter can be found in the 
Appendix on page 70.]
    Mr. Wittman. Thank you, Dr. Felter.
    Ambassador Moorefield.

    STATEMENT OF AMB. (RET.) KENNETH P. MOOREFIELD, DEPUTY 
 INSPECTOR GENERAL FOR SPECIAL PLANS AND OPERATIONS, OFFICE OF 
       THE INSPECTOR GENERAL, U.S. DEPARTMENT OF DEFENSE

    Ambassador Moorefield. Good afternoon, Chairman Wittman, 
Ranking Member Cooper, and distinguished members of the House 
Armed Services Subcommittee on Oversight and Investigations. 
Thank you for this opportunity today to discuss Office of 
Inspector General of the Department of Defense oversight of the 
Department's efforts to develop the Afghan National Security 
Forces.
    Between now and the end of 2014, ISAF and U.S. military 
strategy is focused on developing the operational capability of 
Afghan forces to assume the security lead. Although planning is 
still ongoing, ISAF and U.S. commands have indicated that 
certain ANSF development efforts will likely continue past 
2014.
    Oversight performance assessments undertaken by DOD IG 
[Department of Defense Inspector General] over the past year 
have addressed a number of these force development challenges. 
One recent assessment concerned efforts to build an Afghan Air 
Force by 2016. Development of the Afghan Air Force became a 
command priority only in 2010. It is therefore in the early 
stages of building base infrastructure, procuring aircraft, and 
recruiting and training Afghan pilots and crews.
    Our team noted a potential systemic challenge in this 
regard, with reference to the need for a clear consensus 
between NATO [North Atlantic Treaty Organization] and the 
Afghan Government concerning the roles and capabilities of the 
Afghan Air Force. Another issue identified concerned the 
ineffective maintenance, parts supply, and performance of the 
C-27A medium cargo aircraft, a key part of the Afghan Air Force 
fleet. And recruiting sufficient Afghan personnel with the 
educational background required to build and maintain a 
relatively modern air force presents a challenge.
    DOD IG also has completed an assessment of the progress 
made by U.S. Special Operations Forces and Marines in building 
the Afghan Local Police. ALP growth has not been without 
difficulties, but it has had success in denying insurgent 
forces access to ALP districts and villages.
    Recently, ALP's strength reached 13,000, with a goal to 
expand to 30,000 by the end of 2014. However, there is a 
shortage of Special Operation Force personnel. The addition of 
several U.S. infantry battalions has helped, but they are not 
as well-prepared by training and experience to carry out this 
mission.
    Additionally, the ALP program was originally planned to 
last 2 to 5 years. Given its relative success, the program's 
longer-term duration, which ISAF recommends, needs to be 
confirmed.
    In April of this year, DOD IG conducted an assessment to 
determine whether the development of an effective command and 
control system to plan, communicate, and execute ANA operations 
was on track. Our team found that the ANA can, in fact, conduct 
basic C2 [Command and Control] with other ANSF elements, but it 
is very dependent upon enabler support provided by the U.S. and 
coalition assets, especially in certain key areas as 
communications and intelligence. Building these key enabler 
capabilities in logistics, health care, and other areas, in 
addition, is a top command priority.
    Another C2 challenge is adapting ANSF personnel to operate 
and manage the relatively complex information technology and 
automation systems that C2 requires. Qualified applicants for 
IT [information technology] positions remain limited. A number 
of ANA personnel who did get trained soon found better-paying 
jobs in the private sector.
    In June 2012, the DOD IG conducted an assessment of U.S. 
and coalition efforts to develop ANA leadership. Leadership, it 
is worth underscoring, is key to ANSF's success. Progress 
continues to be made building the leadership corps through 
basic and advanced training programs, as well as by partnering 
with NATO and coalition units and mentors.
    Worth noting is that the National Military Academy, modeled 
along the lines of West Point, just graduated its largest class 
ever of 640 junior officers, compared to only 84, 5 years ago. 
On the battlefield, as the ANA lead operational role has 
increased, our forces report that so has ANA officer confidence 
increased.
    However, there is still much progress to be made. The 
advancement of officer personnel through assignments and 
promotions is insufficiently skill- or merit-based. This 
presents a disincentive to military personnel seeking increased 
responsibility and accomplishment. And Afghan military officers 
reflect the experience and views of multiple generations who 
trained and fought under the Soviet Army and the mujahideen and 
more recently with NATO-U.S. forces. Not surprisingly, they are 
evolving toward but are not yet a fully cohesive officer corps.
    In closing today, I would like to underscore the remarkable 
professionalism and determination we have witnessed 
consistently displayed by ISAF and U.S. trainers and advisers. 
They conduct their mission under arduous and increasingly 
dangerous conditions. We in DOD IG will continue our oversight 
efforts with respect to this mission through 2014 and beyond.
    I would welcome any questions. Thank you.
    [The prepared statement of Ambassador Moorefield can be 
found in the Appendix on page 87.]
    Mr. Wittman. Thank you, Ambassador Moorefield.
    Mr. Johnson.

 STATEMENT OF CHARLES M. JOHNSON, JR., DIRECTOR, INTERNATIONAL 
    AFFAIRS AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Johnson. Thank you, Mr. Chairman.
    Chairman Wittman, Ranking Member Cooper, members of this 
subcommittee, I am pleased to be here to discuss the efforts to 
build, train, and sustain a capable Afghan National Security 
Force.
    I am accompanied by my colleague, Ms. Sharon Pickup, from 
our Defense Capabilities and Management team. I would like to 
thank her and her staff, as well as the staff for our 
International Affairs and Trade team, for assistance in 
preparing for this testimony.
    Let me first start by noting that, since 2002, the U.S. has 
allocated about $43 billion toward this effort, with an 
additional $11.2 billion appropriated in fiscal year 2012 and 
$5.7 billion requested for fiscal year 2013.
    In 2010, the U.S. Government, the Afghan Government, and 
international community agreed to transition lead 
responsibility for the Afghan security to the Afghan National 
Security Force by the end of 2014. The transition is in 
process, and the U.S. and NATO partners and coalition forces 
have begun evolving more toward an advise-and-assist effort.
    A successful transition requires that ANSF be fully capable 
of addressing security challenges on a sustainable basis. Today 
we will address three points: progress reported and tools used 
to assess ANSF capability; challenges affecting the development 
of ANSF; and the use of security forces teams to advise and 
assist the ANSF.
    With respect to progress, in April 2012 DOD reported that 
only about 7 percent of the Afghan National Army and about 9 
percent of the Afghan National Police units were capable of 
operating independently with assistance from advisers.
    While we have previously found the tools being used to 
assess ANSF reliable for us to report on capability, it is 
worth noting that the definitions have changed several times. 
For example, when we reported on the Afghan National Army in 
2011, the highest capability rating was referred to as 
``independent,'' which meant that a unit was capable of 
performing its mission without assistance from coalition 
forces. At that time, no Afghan National Army unit was rated at 
that level. Now the highest level is ``independent with 
advisers.'' DOD has noted that this change has contributed, in 
part, to increases in the number of ANSF units assessed at the 
highest level.
    It is also worth noting that not until recently did DOD and 
the NATO forces begin assessing the Afghan National Police for 
civil policing capabilities, which is key to rule of law.
    Our second point is that several longstanding challenges 
may affect the progress and sustainment of the Afghan National 
Security Forces. There are three to highlight: the costs, skill 
gaps, and limited ministerial capacity.
    As for the costs, we have previously reported that the 
Afghan Government is dependent on donor contributions to 
support security forces and that the U.S. has contributed at 
least 90 percent of the Afghan security-related expenditures. 
Two months ago, the international community pledged to sustain 
the Afghan National Security Forces post-2014 at an estimated 
annual cost of about $4.1 billion through 2017. Given the 
limited Afghan revenues, it is anticipated that the U.S. and 
international community would need to fund a significant 
portion of the projected $4.1 billion. IMF estimates that the 
Afghan Government will not be able to sustain its expenses or 
afford its expenses at least for another decade.
    Key skill gaps in the ANSF also persist, including 
shortfalls in leadership and logistics capability, which has 
been noted earlier. For example, DOD reported significant 
shortages in the number of noncommissioned Afghan officers 
needed to provide leadership to the ANSF. Some of the causes we 
have identified include shortages in trainers and low literacy 
rates, which remain an ongoing barrier to addressing skill 
gaps.
    We have recommended in 2011 that DOD, in conjunction with 
the international partners, takes steps to eliminate the 
shortage of trainers. However, according to DOD's latest 1230 
report, about 16 percent of the required instructor positions 
remain unfilled and lack pledges to fill them.
    Another challenge we have previously highlighted is limited 
capacity of the Afghan Ministry of Defense as well as the 
Ministry of Interior. As of April 2012, the MOD [Ministry of 
Defense] was assessed as requiring some coalition assistance to 
accomplish its mission, while the Ministry of Interior was 
assessed as needing significant coalition assistance. MOD and 
MOI are important to a successful transition over to the Afghan 
Government.
    Finally, with respect to the use of Security Forces 
Assistance Teams, the U.S. Army and the Marine Corps began 
deploying these teams earlier this year in support of the 
transition of lead security responsibility. These teams will 
advise the ANSF leaders in areas such as command and control, 
and logistics.
    We have previously identified areas we believe will be 
important considerations for DOD as it moves forward. Among 
these is the importance of assigning personnel to the adviser 
teams in a timely manner so that they can train and prepare in 
advance of being deployed; and, secondly, the need to set clear 
priorities between the advising mission and the other 
operational requirements that they will be expected to fulfill 
in-country.
    This concludes my opening statement. I would be happy to 
take any questions at this time.
    [The joint prepared statement of Mr. Johnson and Ms. Pickup 
can be found in the Appendix on page 97.]
    Mr. Wittman. Thank you, Mr. Johnson.
    Panelists, thank you so much for your questions.
    As you have just heard, the tones have gone off for votes. 
What we will do is to try to get through at least several 
Members' questions, and then we will recess to go vote, and 
then we will return.
    Dr. Cordesman, I would like to begin with you. I think it 
is very interesting that you bring up the metrics by which 
success is being measured with transition with ANSF units, and 
you talk about the Commander's Unit Assessment Tool as probably 
not being the proper overall metric.
    Give us your thoughts. And you mentioned some other metrics 
there--the willingness to fight, allegiance, corruption, those 
sorts of things. Give us your thought about the current CUAT as 
an assessment tool versus other metrics that in your estimation 
or what you are saying should be out there.
    And how do we best do that evaluation as to those units' 
capability, not just in the short term but also in the long 
term as a sustainable force as U.S. forces leave under any 
situation, regardless of how much support they have? And, you 
know, the metrics right now are based on some level of support 
all the way up to operating independently. And I wanted to get 
your thoughts about what else you think ought to be included in 
that assessment tool.
    Dr. Cordesman. Mr. Chairman, it has taken us about a decade 
to get to the CUAT system. Before then, we had the CM 
[Capability Milestone] system, which was essentially a series 
of force-generation measures, which historically have always 
grossly exaggerated the capability of the force, regardless of 
whether it was our force or some other. This is not the way you 
assess capability, period.
    The CUAT system hopefully has a broader set of elements. It 
does look more realistically at the history of combat 
performance. And I am at least told that it looks at political 
alignments, corruption, and the actual nature of the unit 
structure relative to the government and the point of whether 
you have an effective link to policing and other activities. 
But it is broken out still as a force-generation measure.
    We have basically about 18 months in which we are supposed 
to transfer virtually every part of Afghanistan to actual 
operation largely by Afghan forces. Now, when I went through 
this list of issues in my summary testimony--I have gone 
through a much longer list in the written testimony--I focused 
on the fact, this is a force-on-force issue. It is a net 
assessment issue. You measure not whether you are generating 
forces but whether their overall performance in the field is 
actually performing this role of moving toward transition. And 
that is completely different from counting things and saying 
how many people are trained, as important as they are.
    It is also a grim reality that money is a critical issue 
here. We have to know whether they have, not simply the number 
of trainers, but whether any of them are qualified. If you 
could randomly pick out anyone in uniform and turn them into a 
trainer and a mentor, you are not meeting the kinds of 
capabilities that Dr. Felter or, I believe, anybody else would 
measure.
    If you are saying that basically we simply run as many 
people through the system as possible, that is not a metric of 
success. You need to know basically whether you are generating 
an affordable force, and you need to know whether you are 
providing the proper trainer component. And any assessment 
system that only focuses on Afghan forces is, by definition, a 
failure.
    The bulk of the forces will be army forces, as long as you 
only count ANSF. If you throw in the ALP and the APPF [Afghan 
Public Protection Force], the bulk of the forces numerically 
are not army, they are police and security forces, each of 
which has a different function, each of which is considerably 
more corrupt and more subject to political interference, on an 
average, than the army forces. You need to assess them 
accordingly. And you need to look at whether your spending and 
your training processes are solving this.
    In large parts of Afghanistan, there is no matching court 
system, there is no real government to support the police, 
there is no adequate detention system. If you look at the most 
recent 1230 report, buried away in the text is the statement 
that to get government presence in Kandahar and Helmand they 
had to waive all requirements for qualification for the 
personnel deployed. And there are many areas where we know that 
basically the Taliban or insurgents effectively run the justice 
system.
    Looking at this is a fundamentally different perspective 
from simply focusing on force numbers.
    Mr. Wittman. Thank you, Dr. Cordesman.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    I thank the witnesses.
    Dr. Cordesman, your critique is devastating. And I believe 
it is an accurate summary to say that you point out that the 
U.S. does not have a credible policy in dealing with the 
transition right now. Is that a short way of summarizing it?
    Dr. Cordesman. Well, I think, Congressman, I would say that 
what we don't have is any credible public plan.
    I know that people have worked in great detail on providing 
at a more classified level the kind of planning activity on a 
civil and military level that would help. I also know that, 
quite frankly, the numbers keep changing, the goals keep 
changing. It is, frankly, ridiculous to talk about a $4.1 
billion figure as if we had the faintest idea what conditions 
would be in 2014 and 2015 or if that somehow this figure was a 
constant relative to time. It was basically all of about 12 
months ago when we said we needed twice the money. And all of a 
sudden, we are at a completely different funding level, with no 
justification or public expenditure.
    We never had any credible way to get 352,000. That is no 
reflection on the people over there. There is no methodology 
that you can say requires a specific number. But to say that we 
are going down to 228,500 is not something anybody can really 
explain or sustain.
    And this, to me, is the problem. We have the right 
concepts. We have made real progress. I think in many areas we 
have the right priorities. What we don't have is a credible 
plan, a credible management system, a credible way to look at 
advisers and money, and a way to tie the progress we are making 
to the overall progress in the war.
    Mr. Cooper. Again, a devastating critique.
    We are here in the public setting, so I wonder if a 
credible plan is even possible, given the 18-month time 
horizon, the $4.1 billion budget figure, and the other 
constraints that you have mentioned.
    Dr. Cordesman. Well, it is again an excellent question, 
Congressman, but the alternative is to let everything grow by 
topsy.
    Yes, the plan has to be regularly revised and updated. Yes, 
it is conditions-based. Yes, you have to put a lot of things 
together where you can't properly quantify it and you have very 
uncertain data. That is pretty much a definition of public 
policy. And to say that you can't do it because it is difficult 
and it can't be perfect is simply not a credible excuse.
    Mr. Cooper. So here, on the one hand, we don't have a 
credible policy, and then we don't have a credible excuse for 
not having a good policy. So we are kind of caught in between 
here.
    In your opinion, have conditions in Pakistan made our task 
more difficult recently, now that supply lines are allegedly 
back open again? Is the political situation in Pakistan 
continuing to make it even more difficult than it would be 
otherwise?
    Dr. Cordesman. I think it is probably a very broad 
conclusion that none of our problems in Pakistan are over. And 
if you looked at today's news and the fact that the tensions 
between Pakistan and Afghanistan have risen again in spite of 
meetings designed to ease them--we do have the ability, 
hopefully, to bribe them into opening the lines of 
communication long enough for transition.
    I don't think I know of anyone who describes them seriously 
as allies or believes that we have solved the problems that we 
are dealing with. When we have public opinion polls that show 
that Pakistanis think that Americans are more of an enemy than 
Indians, we know just how deeply in trouble we are. And I don't 
think anyone is saying that somehow our problems with the ISI 
[Inter-Services Intelligence] sanctuaries and their links to 
various insurgent groups have in any way gotten better in the 
last year.
    Mr. Cooper. I see that my time is about expired, Mr. 
Chairman. In the interest of time, I will yield to my 
colleagues.
    Mr. Wittman. Thank you, Mr. Cooper.
    We have about 5 minutes, I think, remaining in the vote. 
What we will do, in the interest of time, is to go ahead and 
leave for the vote, and we will come back after a recess. And I 
will recess the committee, ask the panelists to hang around. We 
have two votes, and then we will return, and we will pick up 
questions with Mr. Coffman.
    [Recess.]
    Mr. Wittman. I call back to order the Subcommittee on 
Oversight and Investigations of the House Armed Services 
Committee.
    And we will now continue our questioning, and we will go to 
Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Dr. Cordesman, as we finish tranches 4 and 5 over the next 
2 years, some of the toughest areas to be handed off to, or 
handed back to, the Afghans are yet to be done. And as our 
overall level of troops decrease and the number of resources we 
have in-country decrease, can you talk to us about, how do you 
measure that metrics of, should things begin to happen that 
looks like the ANSF is not being successful, what should we be 
watching for to say, all right, that trend is going the wrong 
way?
    And how do we address the resource issue that might be 
presented since we will, over time, have fewer folks there to 
respond with?
    Dr. Cordesman. Well, it is a very good question, 
Congressman.
    I think that one of the critical aspects is that you 
appraise what is happening in terms of, not things like enemy-
initiated attacks, but insurgent presence and influence; that 
you watch whether the pattern is one of expanding control in 
the--what I think you have been briefed on--the critical 
districts and the districts of interest, which are the most 
sensitive parts of Afghanistan. That is where the ANSF and the 
whole process of transition will probably succeed or fail, 
although there are insurgent elements in other parts of the 
country.
    And I think this is critical, because right now we tend to 
assess risk almost exclusively on whether there are times when 
the insurgents basically conduct organized attacks against us 
or we have, as part of the campaign plan, reasons to attack 
them. I don't think that in any way portrays the risk of the 
problems we face.
    I think that you have to tie the success of the ANSF to 
what is happening in terms of governance and whether the Afghan 
Government is effective and capable of operating in that area. 
If we simply look at the Afghan security forces, we may see a 
lot of cases where the army can win, but it does not have any 
lasting impact.
    Half a century ago, I remember a very senior U.S. officer 
pointing out that if you couldn't go there at night and without 
an armored vehicle, you didn't have security; and that the 
ratings in Vietnam in no way reflected what the actual level of 
security was.
    I think these are the key measures. I think we also have to 
look at what happens to Afghan units in combat and over time. 
What levels of attrition exist? What happens to their 
equipment? Are they actually being supplied? Do they become 
linked to power brokers and warlords?
    Now, that is the ANA. I would find it, frankly, amazing if 
we did not see in many elements of the police, as we go through 
this process, a very different problem: growing levels of 
corruption, growing levels of ties to narcotraffickers and 
power brokers, a tendency to try to get what they can at the 
command level while they can.
    I would also look very hard----
    Mr. Conaway. Give us a couple of sentences on why the 
distinction between the two. Why can the police not go the same 
route--I mean, obviously they started later, but why can't 
they----
    Dr. Cordesman. They are far more local by the very nature 
of things. They are far more tied to local power brokers, 
particularly where government is weak. They can easily, 
basically as they do--I mean, there are cases in Afghanistan 
where you can have a Taliban checkpoint and 10 kilometers away 
you have the Afghan police extorting money from truckers or 
whoever is moving. They are simply there.
    And, basically, the level of discipline, the level of 
rotation and training is different. The level of support and 
equipment is different. They are far more vulnerable to outside 
pressure. And if you can't perform the mission and somebody 
offers you money, you might as well take the money as well as 
be vulnerable. If you are in the border police, it is a 
remarkably attractive business proposition. And raising salary 
doesn't alter the pattern of corruption.
    Now, I don't mean to say that this happens throughout the 
force. There are some very competent, very honorable Afghans in 
it. But this is a key process.
    Mr. Conaway. We tend to focus on the negatives, the 
corruption and those kinds of issues. And then you counter that 
with your statement that you don't mean it is all. How do we 
get a handle--those of us policymakers decide which side to 
take on that limited statement? Is there a way to measure--and 
I am about to run out of time, but----
    Dr. Cordesman. What I have seen in the field, Congressman, 
is you map out the areas where you know that you have 
corruption and you map out the areas where you know you have 
effective forces. And, basically, this a critical aspect of 
assessing those forces. We, after all, do it with provincial 
governors and district governors. We have a very good idea 
which are corrupt and which are honest, and we focus on the 
honest ones and we see the corrupt ones as a problem.
    But any assessment of the police, the Afghan Local Police, 
the APPF, that does not do this is, not necessarily a waste of 
time, but it is an invitation to get into extremely serious 
trouble.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Conaway.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    In terms of the--I understand that the development of the 
police is behind the development of the Afghan Army. And I 
served in Iraq with the U.S. Marine Corps, and one thing that I 
remembered, when there wasn't adequate security, it was very 
difficult to stand up a local police force. Because what would 
happen is we could rely on the Iraqi Army because they weren't 
necessarily from the--they weren't usually from that area. In 
the instance where I was, they were not from the area. So they 
would go--when they weren't out on patrol, they would be in 
secure base camps. When the local police, if they were actually 
doing their job, the insurgents would follow them home at night 
and potentially kill them and their family. And so it was very 
difficult to stand up a police force.
    And so, to what extent is this the case in Afghanistan? 
Anyone?
    Dr. Felter. Congressman Coffman, I can take a response at 
that one.
    I would say, you are absolutely right; without security, 
nothing is possible, as far as making progress with 
counterinsurgents. Certainly when you are standing up a local 
police force, an indicator that they are being successful and 
harming the insurgents' interests is that they are attacked. 
And we see this in Afghanistan and certainly with the Afghan 
Local Police.
    And I think that is why, again, it is so important that you 
have to bring security. Nothing is possible without security. 
And right now, with three-quarters of the Afghan population 
residing in these rural areas where the Afghan National Army, 
Afghan National Police is not, some of our only options are to 
try to find some deliberate way to carefully vet individuals at 
the local level and provide local security.
    And then build on the security, providing a security window 
while the institutions of the Afghan Government, to include the 
national police and the army, can develop and take over that 
mission and then eventually transition those local security 
forces to the actual police and military at some point when the 
conditions are right.
    Dr. Cordesman. Congressman, if I may supplement, I think we 
need to realize that we also will be reducing our presence.
    We also need to understand that this is not in any sense a 
homogenous country. Tribal areas in the east, tribal areas in 
the south operate under very different rules. A lot of those 
still, even if we are there, have justice systems which have 
strong Taliban elements actually running them.
    Security is a key issue, but, frankly, in civil policing, 
wherever you do not have an effective government presence, 
wherever the courts and the legal system doesn't work, wherever 
you don't have legal detention facilities, you can't have a 
police function regardless of how well-trained and organized 
they are.
    And I think that what you may have seen in Iraq--and it is 
typical--is, the army has a chain of supply and command that 
operates more or less continuously. The police very quickly can 
become isolated locally by district, according to a provincial 
governor, get tied to power brokers, because that broad chain 
of command doesn't function; it is the local authorities. And 
there is no clear solution to that problem.
    Quite frankly, that is why so many of these police training 
efforts since World War II have been interesting exercises in a 
triumph of basically good intentions over experience.
    Mr. Johnson. Congressman, if I can add, Dr. Cordesman is 
correct; local governance is really critical to success in the 
transmission. And that is one of the four key elements that is 
being used to make the determination as to when we transition 
lead over to an Afghan security force in certain locations.
    The others, in addition to ANSF capability and the security 
environment, is also the ISAF posture at the time, the presence 
of ISAF as well. So there are four key elements that are being 
used to make those decisions.
    Mr. Coffman. We are talking about reducing the size of the 
Afghan security forces. And so, what is the methodology in 
doing that? Is it, to your knowledge, to anybody's knowledge on 
the panel, is it taking units that are certainly lower in terms 
of readiness, capability than other units and making decisions 
along those lines? Could anybody tell me how those decisions 
are being made?
    Mr. Johnson. Much of the information we have is in an FOUO 
[For Official Use Only] report, which we would be happy to come 
and brief you on.
    But what we do know is that there is an effort to, 
obviously, reduce the costs, in terms of the coalition costs. 
Part of that may be driving some of the reduction. And, also, 
what the Afghan Government can sustain, that is part of the 
initiative there. I think Dr. Cordesman earlier raised a point 
about, how do you come up with these numbers? And, obviously, 
that is something that needs to be looked into.
    Mr. Coffman. Very well.
    Mr. Chairman, I yield back.
    Mr. Wittman. Thank you, Mr. Coffman.
    And we will begin a second round of questions.
    Mr. Johnson, I want to go to you. You talked about 
financial stability, financial capability being critical in the 
long term there for the ANSF. We know that the NATO forces have 
committed about $4.1 billion in that effort. But we also know 
there is a big difference between pledges and money on the 
ground or money actually being put into an account for that to 
happen. Can you tell us, what pledges have actually been made 
by which NATO nations?
    And then we all know, too, in the strategic partnership 
agreement that the U.S. has entered into that our commitment 
goes through 2024. NATO's commitment in the agreement goes to 
2017. So is there an assumption that after 2017 that the U.S. 
will be the sole partner in that effort there in Afghanistan? I 
wanted to get your perspective on that. It looks to me like 
there are some elements there that potentially for us cause 
some concern.
    Mr. Johnson. Yeah, I mean, I hate to repeat again. Much of 
the information we do have is considered ``for official use 
only'' by the Department, so I can't discuss it in an open 
setting.
    What I would reiterate, though, is that the Afghan 
Government will remain dependent on donor contributions. The 
$4.1 billion figure that has been thrown out, I can tell you 
that the projected amount is that the Afghan Government will 
contribute about $500 million of that, with the hope that the 
donor community will step up to cover the rest of that.
    I would also say, as I noted earlier, the U.S. Government 
has paid about 90 percent of the security-related expenditures. 
All of the information in open sources allude to the fact that 
the U.S. will continue to pay probably a larger share of that, 
although my understanding is that the amount is coming down.
    Mr. Wittman. Do you have any specifics on pledges or 
commitments by NATO nations in this? I know we have heard what 
the commitment is by the Afghan Government, but it would be 
interesting to understand the remaining portion of that 
commitment. If it truly is a partnership, how much are the 
partners going to give?
    Mr. Johnson. Yeah, again, most of that information is FOUO, 
and----
    Mr. Wittman. Okay.
    Mr. Johnson [continuing]. We would be happy to brief you on 
it.
    Mr. Wittman. That will be great. I think it would be good 
information for the committee, so, with your indulgence, we 
will try to schedule a time----
    Mr. Johnson. Okay.
    Mr. Wittman [continuing]. To get together with your office 
and members of the committee so that we can get at that 
information.
    Ambassador Moorefield, I wanted to ask you this. In talking 
about capability or capacity within the ANSF, do you believe 
that, with the plan currently in place with transition and with 
capability-building in the ANSF force, do you believe that 
there will be enough capability within that force within the 
proposed scheduled drawdown of U.S. forces so that capability 
will sufficiently transition from U.S. forces to ANSF forces, 
with, obviously, the accompanying support?
    And what do you believe is the critical element of support 
as these tranches are turned over in this transition?
    Ambassador Moorefield. Thank you, Mr. Chairman.
    I think there is a good plan in terms of the build-out of 
the force to the current size of 352,000. That is army and 
police. That will be accomplished during this calendar year.
    It is not, of course, just to produce the forces, but it is 
the ongoing, I think, training and even, I would add, literacy, 
which is a critical element in terms of enabling them to take 
on more technical branch-type training or NCO [Non-Commissioned 
Officer] or officer development.
    So it is an ongoing process. I think that evaluating it 
just at the point they reached 352 is, frankly, not a very 
insightful way of understanding, you know, what their real 
capability is going to look like over next the 2 years.
    Now, I am just going to refer to what General Allen has 
already said in his testimony, but, I mean, it is evident that 
his concept, his strategy is to front-load the risk. So if they 
are going to move up--which apparently is the intention--the 
responsibilities, the lead security responsibilities for Afghan 
forces between now and--well, by this summer, but with the idea 
in 2013 to be able to measure whether or not they are stumbling 
or not, as it were, and be able to fortify them where they are 
weak, you are going to see evidence fairly quickly, I would 
project, as to where the weaknesses are out there. And that 
includes Afghan Army and Afghan police forces.
    So it is a high-risk initiative, but it enables us, while 
we still have forces there, to respond to problems that do 
arise.
    Mr. Wittman. Very good. Thank you, Ambassador Moorefield.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    Dr. Felter, you have an unusually good background to 
understand Afghanistan, both the military side and the 
political side. You state in your testimony that a capable ANSF 
is a necessary but not a sufficient condition for success 
there.
    What would you suggest on the political side that we should 
be trying to do to have a government in Kabul and the provinces 
that could create a more loyal Afghan Army?
    Dr. Felter. Thank you, Mr. Cooper.
    I would even take it down to the local level. And I will 
use the example of, you know, the Village Stability Operations 
currently being managed by the U.S. Special Operations Forces, 
which the Afghan Local Police is a part of.
    The intent of that program is to connect, you know, the 
village to the district center, to the government. And the 
district center is the only government that these people in the 
village even know, so quality of governance really starts at 
the district level. And that is where we need to start building 
capabilities on the governance level. You know, the very best 
Special Operations Forces, whether they are U.S., coalition, or 
Afghan, they can't convince locals to support their government 
if it is--they can't sell a product that doesn't sell, I guess 
is the bottom line.
    So quality governance at the district level is key. And 
once we start connecting Afghans to the district level to 
quality governance, then we can expand it from there. And, in a 
sense, the governance from the top down, from the central 
government, to the province, to the district, can be brought to 
the local Afghans. So I would say that is key.
    Buying time and space is key here. As the institutions of 
the central government develop and mature, we need to have 
security to buy time and space. So, again, that is a necessary 
but not sufficient condition, I think, for progress in the 
campaign. But maintaining that security at the local level, 
which in this case means village to district, is all-important 
as those other institutions develop at the national level.
    Mr. Cooper. So the VSO [Village Stability Operations] 
program is working?
    Dr. Felter. I think it has made great progress, absolutely. 
It is not the silver bullet, it is not the panacea, it is not 
going to solve all the problems. But I think it is a great 
example of an effort to provide this local-level security that 
is all-important to make any progress along the other lines of 
effort in the counterinsurgency campaign--development, 
governance. All of them key on having some modicum of security 
at these levels. And this is an effort to do it.
    You know, today, three-quarters of the Afghan population 
are out in these rural areas where, at least at this point, the 
Afghan National Army, Afghan National Police can't be. So we 
can't cede these areas to the Taliban. We can't defend 
everywhere, but we have to find the strategically important 
areas and develop the capacity to have the security so these 
institutions can develop, both at the central level in Kabul, 
all the way down to the provinces and to the district.
    Mr. Cooper. As you are well aware, we have already been 
involved in this conflict for over 10 years, and people's 
patience is running thin. So we should plan on another 10 years 
or 20 years to get this working?
    Dr. Felter. I think we should plan on using our remaining 
time, which has been determined by our political leadership 
here, to make as much progress as possible, to develop this 
capacity of the ANSF and allow the governance to develop as 
much as possible.
    But I would offer some encouraging news. You know, if you 
look at historical precedent, you know, when the Soviets left 
Afghanistan in 1989, you know, things held together. It wasn't 
pretty, but they were able to prevent the complete collapse of 
the Najibullah government.
    I think we are leaving Afghanistan already in much better 
shape than the Soviets left it. And we are going to make 
progress between now and when we leave. So absolutely, I think 
we need to take advantage of all our remaining time, while we 
have forces there. We need to partner more effectively, while 
we have the capacity and competence-building and 
professionalizing opportunities of a large coalition force 
presence. But eventually, they are going to have to stand up 
and take it on their own. If we stay--there is a certain moral 
hazard, I think, if you have an open-ended commitment, where if 
there is no requirement to stand up and provide for your own 
security, then there is less of an incentive to do so. And 
again back to the--I use the Soviet experience as an example, 
where once the Soviets left, there were some encouraging signs 
that the Afghan military forces were able to stand up on their 
own. There was actually a certain sense of self-reliance now. 
And certainly much of the support for then the mujahideen and 
now I would say the Taliban might diminish when this large 
occupying force, if you will, leaves, and they realize they are 
going to have to defend themselves and can't turn to the 
occupying power to fill that role.
    Mr. Cooper. My memory is faulty, but post the Soviet 
departure, wasn't it just a series of warlords and not a 
central government?
    Dr. Felter. It wasn't pretty at all. The Najibullah 
government that was installed prior to the Soviets left, it was 
able to hold together. So I am not painting a rosy picture 
here, but I use it as an example that it wasn't a complete 
collapse. Importantly, the Soviets maintained aid and 
assistance to the Najibullah government, and that kept it 
going. But it wasn't until the actual collapse of the Soviet 
Union and the aid got cut off that the Najibullah government 
fell and that we saw the civil war that ensued that resulted in 
the Taliban taking over.
    So maybe apples to oranges here, but I think history 
doesn't repeat itself, but it does rhyme, a Mark Twain quote. I 
think this here is a case where we will be leaving Afghanistan 
I think in better shape than the Soviets left it. And I think 
we can expect certainly as good, if not better, results and 
that the government, you know, may not collapse. There may be 
some challenges, we may be ceding some territory, but I think 
we can avoid a collapse of the government we leave behind. And 
I think the biggest threat is internal cohesion. I think the 
Afghan National Security Forces now have demonstrated they can 
prevail against the Taliban in the field head-to-head. I would 
say they are at least marginally better performers than the 
Taliban. They are not nearly to the level we would like, and 
Dr. Cordesman has pointed that out very eloquently, but they 
can prevail against the Taliban. They are marginally better.
    And given that, I think that we can expect some capability 
for them to keep the government in position. But should the 
government, should internal divisions fracture the Afghan 
National Security Forces, should they start to support warlords 
or other power brokers, I think that is where we are going to 
see our problem. So I really think the key variable here is 
political, not military. I think the ANSF has enough capacity 
to defend the country at some basic level, but it is all going 
to depend on political factors, and if they can avoid the 
division and factional strife and ethnic divisions that could 
tear the country apart.
    Mr. Cooper. Thank you, Mr. Chairman.
    I see my time has expired.
    Mr. Wittman. Thank you, Mr. Cooper.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Assuming that the aid continues I think at the $4 billion 
level, if I understand it, that is the kind of post-2014 
commitment, and we look back at the Soviets' experience that 
the Najibullah government was able to remain in power at some 
level but then collapsed after that aid stopped when the Soviet 
Union dissolved. What does that tell us about--doesn't it in a 
way--I mean, obviously from the standpoint of U.S. taxpayers, 
it is not a great thing, but doesn't that give us some hope 
that if that aid, if that commitment were to continue, that the 
government would stay together and they would not be divided 
along ethnic tensions, and that the central government would 
obviously hold, the military would hold at some level, and 
although there might be areas dominated by the Taliban, for the 
most part the country would remain free of the Taliban? Is that 
a realistic scenario?
    Dr. Cordesman. Congressman, I would have to say maybe, but 
probably not. There are a couple of things to bear in mind 
here. First, until somebody can explain where they got that 4.1 
[billion dollar] figure, I can only point out that as of May 
2011, the figure was $7.2 billion to $9 billion for the same 
size force. So even if you fully fund the mystery number, you 
have no reason to basically trust it. If you do support the 
Afghan National Security Forces, and we can't solve the problem 
of sustaining an effective civil government--and they face far 
more serious problems in terms of funding as we pull money out 
and troops out, according to World Bank and IMF studies than 
the ANSF--then we end up with what I think we would all warn 
about, which is a force without a government and without the 
sustaining money.
    I think, too, that I would remember here that a lot of our 
plans are tacitly linked to something people tend to forget 
about. The Afghan Government formally promised yet again to 
make the critical reforms to allow district, provincial, and 
other governments to work, and reduce corruption in specific 
detail at both the Bonn conference and Tokyo conference. But as 
yet, there are no plans as to how that will happen, to hold 
them accountable. And we have 10 years of experience in which 
not one of those promises has ever been kept. And just in the 
last week, we have seen them fail to come to grips with 
something critical like investment in mining and petroleum. So 
you have asked a critical question, but you have got to address 
it in a much broader way. And you have to ask yourself, unless 
we can make that 4.1 credible, both as a cost estimate and in 
terms of funding, it is one of those horrible numbers like 
352,000 for which there is no known purpose or real source.
    Mr. Coffman. Dr. Felter.
    Dr. Felter. Congressman, just to follow up, I think you are 
right, I think there is--with this continued aid, there will be 
some incentives to hold it together, to have this all-important 
cohesion within both the ANSF and the government itself. So, 
encouragingly, if the international community and the United 
States can provide some level of aid and assistance, we might 
expect there to be strong incentives to cooperate amongst these 
power brokers within the Afghan Government. But also, as we 
withdraw, in a sense, ISAF is there like a referee enforcing 
the rules. And as we draw down in numbers, it is like--you 
could liken it to a football game with the referees leaving the 
field. Will the teams continue to play by the rules? Not sure. 
But this aid and assistance will be a continued incentive for 
them to cooperate going forward if it is still provided at some 
level.
    Mr. Coffman. In terms of this culture of corruption and the 
dysfunction that we so often hear of in Afghan civil governance 
and Afghan security forces, but maybe perhaps right now they 
see the United States and our coalition allies as really the 
guarantor of their security, once we are gone, will that in 
effect, that absence inherently strengthen those institutions 
of Afghan governance and security and improve the situation, 
knowing that we are not there?
    Dr. Cordesman. We don't know of any historical cases, not 
one, where that has been what has happened. We have seen other 
governments and successor groups over time survive in 
structure. But the fact is if the government can't function as 
we leave and if it doesn't make the reforms it has promised and 
if we don't get a decent election and a new leader, confronting 
them basically may not make the Taliban and Haqqani Network 
win, but the end result is very likely to be fragmentation of 
the country on ethnic, sectarian, and regional lines. That may 
not be an unacceptable consequence. I think we need to be 
careful about Afghan good enough. But the idea that somehow 
pulling the plug makes people behave better is not one for 
which I know of much historical precedent.
    Dr. Felter. May I add just a quick comment on that? So, in 
the case of the Afghan local police, there was a survey taken 
in the eastern part of Afghanistan where when the ALP had been 
effective at defending its villages, which is its main goal, 
the people thought that--they didn't want to give the ALP 
credit, because they were still giving credit to ISAF. So, even 
in cases where we see success and positive performance, in some 
cases, and I don't disagree with Dr. Cordesman's historical 
assessment, but there is cases in Afghanistan where we can see 
survey evidence that the people there still give credit to 
ISAF, or they are reluctant to give credit to the ANSF, in this 
case the ALP, because they think it is all attributed to ISAF's 
presence. So if we can see them succeed when we leave, they 
might start getting the credit and maybe getting the support of 
the population, which is so critical.
    Mr. Coffman. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Coffman.
    Mr. Conaway.
    Mr. Conaway. Thank you.
    This is for the whole panel. Obviously, the figure $4.1 
billion is being bandied around how to pay for the security 
forces. But do we have any, at this point, estimate as to the 
economic impact on our leaving, and all of the caring and 
feeding that goes on in which much of that is based on--you 
know, sourced out at the local economy. What impact will that 
have on the economy? And does that--how does Afghanistan 
replace that near-term positive impact of stuff we buy locally? 
Do we know what that impact is? Anybody?
    Dr. Cordesman. There are World Bank and IMF estimates, 
Congressman. They would both be the first to tell you that they 
are little more than wags. We simply don't know, out of the 
money we appropriate and disburse for Afghanistan, how much of 
it actually gets into the country and where it goes. The 
organization that is supposed to be assessing the overall aid 
process, which is called UNAMA [United Nations Assistance 
Mission in Afghanistan], has never issued a report on aid or an 
estimate of the total spending. We do have work done by the GAO 
[Government Accountability Office], SIGAR [Special Inspector 
General for Afghanistan Reconstruction], CBO [Congressional 
Budget Office], which looks at how the U.S. appropriates and 
audits individual programs.
    Mr. Conaway. I am not talking about aid. I am talking 
about, well, we have got bases all over the place where we hire 
locals to----
    Dr. Cordesman. I am talking about military spending, which 
we call aid often. I am talking about direct spending in 
country. I am talking about State Department and other 
spending, which is not aid, which is a very substantial amount 
of the money, but does go in country, and aid together. And the 
estimates done from World Bank, IMF basically came up first 
within January an estimate that it would take about $20 billion 
to $24 billion a year in outside financing to keep the country 
from basically having problems with economic growth, and $10 
billion in aid more recently in Tokyo, roughly, to sustain the 
effort, civil and military. But all of those estimates were 
made by people who explicitly said they could not assess the 
impact of reducing the military side of spending as 
distinguished from the civil aid side.
    Mr. Johnson. If I can chime in on that, we issued a report 
back in September 2011 on Afghan donor dependency. I guess a 
key point there, to follow up on what Dr. Cordesman said, is 
that a lot of the money has been off the books. So the Afghan 
Government itself has no visibility in the amount of money that 
is pouring into its country, that they don't have any oversight 
and accountability over themselves. I know we have shifted more 
toward providing some of our assistance--I think the goal was 
up to 50 percent--directly through the Afghan Government, 
whether it is through trust funds or other means and all.
    But until there is more visibility in terms of all the 
books, I think we kind of took an effort to pull it all 
together for one of the first times back in September of 2011. 
But that is something that has not been routinely done, and 
that is something that is probably needed.
    Mr. Conaway. Who should do that?
    Mr. Johnson. We would be happy to undertake a follow-up 
effort.
    Mr. Conaway. And not to be argumentative, but Dr. Felter, 
you used the phrase occupying force a while ago to describe the 
U.S. presence there. Do you consider us an occupying force as 
that term is typically used?
    Dr. Felter. I would say some of the Afghans view us as an 
occupying force in the same way they viewed the Russians as an 
occupying force. And there are certainly very important 
differences between the two, and I would take offense if we 
were compared too closely to the Russian or to the Soviet 
occupation. But it is really important not how we perceive 
ourselves----
    Mr. Conaway. I got that part. But you used it as your 
descriptor, and I was focusing on that.
    Dr. Felter. I think that in the eyes of many Afghans, we 
are occupiers.
    Mr. Conaway. I get that. But I don't think we view 
ourselves that way.
    Dr. Felter. No, absolutely not.
    Mr. Conaway. And shouldn't.
    Dr. Felter. But it is very critical to understand how we 
are viewed. In some of these remote areas, you get the question 
occasionally that locals ask you if you are Russian. And it has 
happened on more than one occasion. That is just how 
disconnected some of these areas are.
    Mr. Conaway. Yeah. It speaks to the level of overall 
development. I mean, some of those back valleys are in a 
different century than the rest of the country. You know, that 
is okay. They like it, and that is not our job to drag them 
kicking and screaming into the 21st century. We sometimes get 
lost in that issue. I appreciate you not calling us an 
occupying force.
    Dr. Felter. Thank you, sir.
    Mr. Wittman. Thank you, Mr. Conaway.
    Are there any other questions from the panel members?
    Mr. Coffman. Yes.
    Mr. Coffman. Thank you, Mr. Chairman.
    I just have one question. And that is that it appears that 
there has not been a credible election yet in Afghanistan by 
international standards. And what in your mind is going to be 
the transition of power when Mr. Karzai leaves? I wonder if you 
all could speak to that. Because that is obviously key to the 
success of Afghanistan, would be a peaceful and credible 
transition of power.
    Dr. Cordesman. I think that, first, the U.S., its allies, 
are making every possible effort to get an effective election 
in 2014. I think it is--the idea we could do it in 2013 has 
been abandoned. But it isn't just a matter of creating an 
honest election. It is the fact we don't know who would really 
be the replacement to Karzai. We are not sure that there won't 
be a Karzai attempt to create something as we saw in Russia, 
have a relative run or something similar, in spite of what he 
says.
    And the most serious problem we face is that even if there 
is an effective election, it will occur in 2014 in the middle 
of this economic problem and aid problem that Congressman 
Conaway pointed out. And basically speaking, unless we get the 
reforms that the Afghan Government has promised, the new leader 
basically will still have a system where there is no way the 
parliament can actually function and allocate money. And one 
man essentially is in charge of virtually all the funding that 
goes through the Afghan central government, the president, and 
there is no ability at the provincial or local level to raise 
money. So you have got to solve not only the election problem, 
but the leadership problem. And basically, those problems in 
governance reform, which the government has formally pledged to 
do in two international conferences, but for which as yet there 
is no deadline or implementation plan.
    Mr. Coffman. Thank you, Mr. Chairman.
    I yield back.
    Mr. Wittman. Thank you, Mr. Coffman.
    Mr. Conaway, anything else?
    Mr. Conaway. No.
    Mr. Wittman. Panel members, thank you so much for joining 
us today. We really appreciate your perspective.
    Mr. Johnson, we look forward to getting a little more 
information to you about some of the finances. Members, if you 
have any additional questions for our panelists today, if you 
will make sure that you get them to us, we will get them to our 
panelists. We would ask your indulgence, if there are 
additional questions, if we could submit those to you in 
writing. And if you could get some answers back to us, that 
would be great.
    Again, thank you so much for your time and efforts today.
    And with that, the committee is adjourned.
    [Whereupon, at 3:52 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             July 24, 2012

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 24, 2012

=======================================================================

      
                     Statement of Hon. Rob Wittman

      Chairman, House Subcommittee on Oversight and Investigations

                               Hearing on

              Afghan National Security Forces and Security

                Lead Transition: The Assessment Process,

                Metrics, and Efforts To Build Capability

                             July 24, 2012

    Today the Oversight and Investigations subcommittee 
convenes the fourth in our series of hearings related to the 
Afghan National Security Forces.
    Members have just received a closed, classified briefing 
from senior Department of Defense officials on the metrics used 
to assess the readiness of Afghan forces and current capability 
ratings.
    Now, the subcommittee holds an open hearing on this topic.
    We have assembled a panel of specialists to provide 
testimony about the sufficiency and reliability of the metrics 
used by the U.S. to track the progress of the development of 
the Afghan National Security Forces. We will also receive 
testimony about the effectiveness of the U.S. training effort, 
and the challenges our troops face in readying the Afghan army 
and police to assume the lead for security by 2014.
    The development of self-sufficient Afghan forces capable of 
providing internal and external security is a key goal of the 
U.S. strategy for Afghanistan.
    In public settings before this subcommittee and elsewhere, 
Department of Defense officials have said that the capability 
of the Afghan forces will inform decisions about the pace of 
the continued drawdown of U.S. troops and the size of an 
enduring U.S. presence.
    Our panel today includes:

        <bullet> LDr. Anthony Cordesman, the Arleigh A. Burke 
        Chair in Strategy at the Center for Strategic and 
        International Studies;
        <bullet> LDr. Joseph Felter, a retired U.S. Army 
        colonel and Senior Research Scholar at the Center for 
        International Security and Cooperation at Stanford 
        University;
        <bullet> LAmbassador (ret.) Kenneth Moorefield, the 
        Deputy Inspector General for Special Plans and 
        Operations at the Department of Defense Office of the 
        Inspector General; and
        <bullet> LMr. Charles M. Johnson, Jr., a Director of 
        International Affairs and Trade at the United States 
        Government Accountability Office. Mr. Johnson will be 
        assisted in answering questions by his colleague Ms. 
        Sharon Pickup, also a Director at GAO.

    Thank you for your participation. We look forward to your 
testimony.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
